HHS/OIG, Audit -"Oversight and Evaluation of the Fiscal Year 2005 Comprehensive
Error Rate Testing Program,"(A-03-05-00006)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Oversight and Evaluation of the Fiscal Year 2005 Comprehensive
Error Rate Testing Program," (A-03-05-00006)
November 10, 2005
Complete
Text of Report is available in PDF format (387 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether:  (1) CMS and AdvanceMed had appropriate controls
to ensure that AdvanceMed followed established procedures in making medical review decisions
and adequately maintained, updated, and reported the results of those reviews; (2) CMS and
AdvanceMed had implemented a prior recommendation to complete the Comprehensive Error Rate
Testing (CERT) quality assurance program; and (3) CMS had ensured consistency and coordination
of the error rate programs.  CMS and AdvanceMed generally had appropriate controls to
ensure that AdvanceMed followed procedures and adequately maintained, updated, and reported
results.  CMS could do more to ensure consistency and coordination of the error rate
programs.  Sampling periods were not consistent, and management of the programs was
decentralized.
We recommended that CMS:  (1) work to establish CERT and Hospital Payment Monitoring
Program sample periods that are more consistent with each other and more closely aligned
with the fiscal year and (2) consider centralizing the management of the error rate programs
under a single office.  CMS concurred with the findings and recommendations.